                                              OFFICE OF JOB CORPS


Office of Inspector General—Office of Audit




                                              ABC GEORGIA OVERSTATED JOB CORPS
                                              PLACEMENT OUTCOMES




                                                                    Date Issued: September 29, 2006
                                                                    Report Number: 09-06-004-01-370
U.S. Department of Labor
Office of Inspector General                               SEPTEMBER 2006
Office of Audit
                                                          ABC GEORGIA OVERSTATED JOB
BRIEFLY…                                                  CORPS PLACEMENT OUTCOMES
Highlights of Report Number: 09-06-004-01-370 to
Ms. Esther R. Johnson, National Director, Office of       WHAT OIG FOUND
Job Corps
                                                          The OIG found that placement outcomes reported
WHY READ THE REPORT                                       by ABC for program years 2003 and 2004 were not
The report discusses allegations that placements          reliable and a significant number of invalid
were falsified in one American Business Corporation       placements were claimed. We found unsupported
(ABC) office and invalid placements were claimed          job and educational placements; inadequate
throughout ABC offices. It also discusses                 documentation of compliance with Job Corps
allegations that Job Corps did not take timely action     requirements; and confirmed cases of signature
to assess liquidated damages or correct placement         forgeries on educational placement verification
data when it learned of the invalid placements.           forms. One of the reasons this occurred was that
                                                          the procedures the Atlanta Regional Office used to
WHY OIG DID THE AUDIT                                     monitor ABC placement activities were not effective
The Office of Inspector General conducted an audit        and the placement verification processes had
of ABC and the Atlanta Regional Office of Job corps       systemic weaknesses.
to determine the merits of a hotline complaint
alleging that (1) falsified placements were reported      We did find that the Atlanta Regional Office (1)
in one of ABC’s offices and that invalid placements       initiated actions to recover liquidated damages from
were claimed throughout ABC’s Career Transition           ABC, and (2) identified and reported invalid
Service (CTS) offices, (2) the Atlanta Job Corps          placements to the National Office, although it could
office failed to assess liquidated damages on             have initiated those actions timelier.
identified invalid placements, and (3) the Atlanta Job
Corps office failed to revise ABC and Job Corps           WHAT OIG RECOMMENDED
performance data to reflect invalid placements
because of concern about the impact on the its            We recommended that the National Director, Office
national performance rating.                              of Job Corps, direct the ARO Director to take
                                                          corrective action to ensure monitoring and follow-up
The OIG decided to audit these allegations because        actions are taken timely on CTS providers. We also
Job Corps is a major Department of Labor program          recommended that personnel be trained in incident
affecting disadvantaged youth of the country. The         reporting procedures and procedures for
reliability of student placement data is very important   performance-based contracts be improved. We
in assessing the success of the program and               specifically recommended the National Director,
managing the resources and assets of the                  Office of Job Corps immediately assess $214,992 in
Department. Student placement data is used                liquidated damages and review reported placements
extensively by the Office of Job Corps, Departmental      on all ABC contracts for potentially invalid
management and the Congress and, therefore, must          placements.
be reliable.
                                                          Finally, we recommended the National Director,
READ THE FULL REPORT                                      Office of Job Corps, direct the ARO Director to
To view the report, including the scope,                  determine the financial impact of ABC’s invalid
methodology, and full agency response, go to:             placements on payments to centers.

http://www.oig.dol.gov/public/reports/oa/2006/09-06-      In response, ABC objected to the use of
004-01-370.                                               Unemployment Insurance wage information in
                                                          determining the validity of placements and disagreed
                                                          with our conclusions. The Job Corps Atlanta
                                                          Regional office concurred with our findings.
                                                                                    ABC Georgia Overstated Job Corps
                                                                                                Placement Outcomes



Table of Contents
                                                                                                                         PAGE


TABLE OF CONTENTS.................................................................................................. 1

EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

RESULTS AND FINDINGS............................................................................................. 8

   The placement outcomes reported by ABC for PYs 2003 and 2004 were
   not reliable. ................................................................................................................ 8
   The ARO’s actions to recover liquidated damages were delayed due to
   the lack of management controls........................................................................... 16
   The ARO did take action and worked with the National Office and ABC to
   validate placements, although Job Corps actions could have been
   timelier...................................................................................................................... 18

APPENDICES ............................................................................................................... 21

   APPENDIX A Background....................................................................................... 23
   APPENDIX B Objectives, Scope, Methodology, and Criteria............................... 25
   APPENDIX C Acronyms and Abbreviations .......................................................... 29
   APPENDIX D.1 Auditee (ABC) Response to Draft Report .................................... 31
   APPENDIX D.2 Auditee (ARO) Response to Draft Report .................................... 39




US Department of Labor – Office of Inspector General                                                                              1
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes




2                                  US Department of Labor – Office of Inspector General
                                                     Report Number: 09-06-004-01-370
                                                        ABC Georgia Overstated Job Corps
                                                                    Placement Outcomes



Executive Summary
We conducted a performance audit related to employment and educational placements
reported by American Business Corporation Georgia (ABC), a Job Corps Career
Transition Services (CTS) provider which was awarded a contract to provide Job Corps
outreach, admissions and placement services from January 1, 2001 through May 31,
2005.

The OIG received a hotline complaint alleging (1) placements were falsified in one ABC
CTS office and invalid placements were claimed throughout ABC’s CTS offices, (2) the
Atlanta Regional Office of Job Corps (ARO) did not act to recover liquidated damages
from ABC, and (3) the ARO Director failed to revise ABC and the ARO’s performance
data to reflect invalid placements because of concern about the impact on the ARO’s
national performance rating.

Our audit was conducted because of the allegations of fraud and/or abuse carried out
by employees of a Job Corps service provider and Federal personnel charged with
oversight of a program whose mission includes serving eligible young people by
providing meaningful jobs or further educational opportunities. The placement data
reported on young people who have completed the Job Corps program is used by Job
Corps in its annual reporting to the Secretary of Labor and to Congress.

Our audit objectives were to determine the following:

   1. Were placement outcomes reported by ABC in Program Years (PYs) 2003 and
      2004 reliable and did ARO use effective policies and procedures to ensure
      placement validity?

   2. Did ARO use effective policies and procedures to ensure appropriate liquidated
      damages were recovered from ABC in cases of identified invalid placements?

   3. Did the ARO Director fail to revise ABC and the ARO’s performance data to
      reflect invalid placements because of concern about the impact on the ARO’s
      national performance rating?

Results

We reviewed the allegation that falsified placements were reported in one of ABC’s CTS
offices and that invalid placements were claimed throughout ABC’s CTS offices. We
found that placement outcomes reported by ABC for PYs 2003 and 2004 were not
reliable and a significant number of invalid placements were claimed both in the hotline-
identified placements and in additional statistically selected samples of placements
claimed by ABC. Our audit of ABC placements revealed unsupported job and
educational placements; inadequate documentation of compliance with Job Corps’

US Department of Labor – Office of Inspector General                                    3
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes

Policy and Requirements Handbook (PRH) requirements; and confirmed cases of
signature forgeries on educational placement verification forms. We also found that 1)
one of the reasons the significant number of invalid placements occurred was that the
procedures ARO used to monitor ABC placement activities were not effective and 2)
ARO's placement verification processes had systemic weaknesses. Despite concerns
in two monitoring reports, ARO did not take formal corrective actions.

Based on the results of our statistical sample, we estimate that graduate placements
assigned to ABC in PY 2003 and subsequently reported by ABC in PYs 2003 and 2004
were overstated by a point estimate of 22 percent due to invalid placements (208 out of
947 placements. See Appendix B, Methodology, for an explanation.) Therefore, the
allegation of invalid placements by ABC is substantiated.

We also reviewed the allegation that ARO failed to assess liquidated damages based
on identified invalid placements. We concluded that ARO did initiate actions to recover
liquidated damages from ABC. The ARO had computed the amount of liquidated
damages and drafted letters to ABC actually assessing the liquidated damages.
Therefore, the allegation is not substantiated. However, we did conclude the ARO
actions could have been timelier.

In addition, we assessed whether the ARO Director failed to revise ABC and the
region’s performance data to reflect invalid placements because of concern about the
impact on the region’s national performance rating. We concluded that the ARO
identified and reported invalid placements to the National Office, although the ARO
could have initiated those actions timelier. Therefore, this allegation is not
substantiated.

Based on our audit, we estimated $214,992 in liquidated damages have not been
collected from ABC. In addition, ARO did not comply with its reporting requirement
under 20 CFR 667.630 to report potential fraud incidents to the OIG through the
Department’s Incident Reporting System.

Nationwide Action by Job Corps

Job Corps has already begun taking action to improve performance data reliability.
Specifically, to improve system-wide data validation, Job Corps has convened a
national performance data reliability workgroup to make recommendations for
processes to ensure system-wide integrity of performance data.

Auditee Response

We obtained comments from ABC and ARO.

ABC Response: ABC disagreed with the report’s statements regarding the number of
invalid placements and the determination that many their placements are invalid. In
addition, they stated the report was unclear as to how the OIG used UI wage records in


4                                       US Department of Labor – Office of Inspector General
                                                          Report Number: 09-06-004-01-370
                                                          ABC Georgia Overstated Job Corps
                                                                      Placement Outcomes

evaluating the validity of placements. ABC did agree that one CTS (placement
specialist) reported some invalid placements, but strongly disagreed that invalid
placements were claimed throughout ABC offices. ABC management stated that
because of a lack of access to data and the compressed time they were given to
research the reported invalid placements, their ability to refute the findings was severely
impeded. They claimed that they had already obtained new documentation that verifies
the validity of a number of the alleged invalid placements.

ARO Response: ARO concurred with the findings. The Regional Director stated ARO
has implemented procedures that address recommendations 1-4. They also stated Job
Corps will research the feasibility of making the assessment of incentives and bonuses
as recommended.

OIG Conclusion

ABC’s response was based to a large degree on a preliminary statement of facts issued
during the audit and includes placements not used in our final analysis. It also does not
address additional audit documentation used to reach our conclusions. They did not
provide additional information that changes the report conclusions.

Although ARO stated they have implemented procedures that would answer certain of
the recommendations, the findings and conclusion are unchanged.

Recommendations

We recommend the National Director, Office of Job Corps, direct the ARO Director to:

   1. Implement recommendations of the national workgroup relative to the monitoring
      and follow-up of CTS providers’ placement activities in order to correct
      weaknesses and breakdowns in the region’s application of its monitoring policies
      and procedures.

   2. Prepare a corrective action plan for all future program monitoring reports.

   3. Ensure training of all ARO personnel responsible for monitoring operators and
      service providers activities in their responsibility for reporting potential fraud
      incidents to the OIG through the Department’s Incident Reporting System, as
      required by 20 CFR 667.505.

   4. Develop additional procedures for contract officers to follow in preparing
      performance based contracts that will ensure required contractor penalty
      provisions are included in all contracts.

   5. Immediately assess $214,992 in liquidated damages resulting from invalid
      placements in PYs 2003 and 2004 identified in this audit report.



US Department of Labor – Office of Inspector General                                       5
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes



We recommend the National Director, Office of Job Corps:

    6. Direct all Job Corps regional offices with ABC CTS contracts to review reported
       placements by ABC for potentially invalid placements.

We further recommend the National Director, Office of Job Corps, direct the ARO
Director to:

    7. Assess the likelihood center operators received overpayments of performance
       incentives and bonuses based on the invalid placements identified in this report.
       Based on that assessment, determine the amount of overpayments, and work
       with the Office of the Solicitor to determine and seek recovery from those liable
       for repayment, including ABC and/or center operators.




6                                        US Department of Labor – Office of Inspector General
                                                           Report Number: 09-06-004-01-370
                                                                 ABC Georgia Overstated Job Corps
                                                                             Placement Outcomes

U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                          Assistant Inspector General’s Report


Ms. Esther R. Johnson
National Director
Office of Job Corps
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

We conducted a performance audit related to employment and educational placements
reported by American Business Corporation Georgia (ABC), a Job Corps Career
Transition Service (CTS) contractor.

The OIG received a hotline complaint alleging, 1) placements were falsified in one CTS
placement office and invalid placements were claimed throughout ABC’s CTS offices, 2)
the Atlanta Regional Office of Job Corps (ARO) failed to revise ABC and the ARO’s
performance data to reflect invalid placements because of concern about the impact on
the ARO’s national performance rating, and did not act to recover liquidated damages
from ABC.

Our audit was conducted because of the allegations of fraud and/or abuse carried out
by employees of a Job Corps service provider and Federal personnel charged with
oversight of a program whose mission includes serving eligible young people by
providing meaningful jobs or further educational opportunities. The placement data
reported on young people who have completed the Job Corps program is used by Job
Corps in its annual reporting to the Secretary of Labor and to Congress.

The audit objectives were to determine the following:

Were placement outcomes reported by ABC in Program Years (PY) 2003 and 2004
reliable, and did ARO use effective policies and procedures to ensure placement
validity?

Did ARO use effective policies and procedures to ensure appropriate liquidated
damages were recovered from ABC in cases of identified invalid placements?

Did the ARO Director fail to revise ABC and the ARO’s performance data to reflect
invalid placements because of concern about the impact on the ARO’s national
performance rating?

US Department of Labor – Office of Inspector General                                           7
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes




We conducted the performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS) issued by the Comptroller General of the
United States. Our audit objectives, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS AND FINDINGS

Objective 1: Were placement outcomes reported by ABC in PY 2003 and 2004 reliable,
and did ARO use effective policies and procedures to ensure placement validity?
The placement outcomes reported by 2003 and 2004 were not reliable.


The placement outcomes reported by ABC for PYs 2003 and 2004 were not reliable.
The outcomes were not reliable because an ABC placement specialist falsified
placements at two of ABC’s CTS offices in PYs 2003 and 2004, and invalid placements
were claimed throughout ABC’s CTS offices, as noted in the hotline complaint. As a
result, based on our statistical sample of graduate placements, we estimate that ABC
graduate placements initially assigned in PY 2003 and reported in PYs 2003 and 2004,
were overstated by a point estimate of 22 percent due to invalid placements (208 out of
947 placements. See Appendix B, Methodology, for explanation.) We also found that
the procedures ARO used to monitor ABC’s placement activities were ineffective.

Beginning in January 2001, ABC was awarded a contract by Job Corps for outreach,
admissions and career transition services (Placements). The contract required ABC to
identify and match graduates and enrollees with placement opportunities in jobs, the
military, or further education and training.

To help monitor program performance, Job Corps included in its contract with ABC a
requirement to report whether the students assigned to ABC were successfully placed
in jobs or higher education, or whether they were not placed.

The contract further required ABC to follow the placement criteria set forth in Chapter 4
of Job Corps’ Policies and Requirements (PRH) Handbook in reporting placements.
Under PRH guidelines, placements are described as follows:

      Job placements: can be either for full-time employment at 32 hours or more
      in a consecutive 7 day job; a registered apprenticeship; or active duty armed
      forces; or part-time for a minimum of 20 hours a week (but less than 32 hours),
      in one or 2 jobs in a consecutive 7 day period.

      Educational placements: are for high school diploma attainment; post-secondary
      vocational training at no less than 20 hours a week for at least 90 expected
      calendar days; registered at a college for no less than 9 credit hours per quarter or
      semester; or on-the-job or other training for no less than 20 hours per week.



8                                                                     US Department of Labor – Office of Inspector General
                                                                                        Report Number: 09-06-004-01-370
                                                          ABC Georgia Overstated Job Corps
                                                                      Placement Outcomes


   Work and college combined: with a minimum of 16 hours of work at one job per
   week and 6 college credit hours.

The PRH specifies that CTS providers shall verify and document 100 percent of initial
placements and obtain placement verification documentation as described in the PRH.

Our audit of ABC’s placements for PYs 2003 and 2004 includes 139 PY 2003
educational and job placements identified in the hotline complaint as invalid. The
placements identified in the hotline complaint are the same educational and job
placements identified by ARO in a review performed in 2004. However, as discussed in
the following paragraphs, while ABC files did contain verification forms, many of the
actual placements were questionable or invalid.

Of the 139 alleged invalid placements, we found that 1 placement was valid, another
was not an ABC job placement, and the remaining 137 were invalid under the PRH
requirements. This conclusion is the same conclusion reached by ARO in its review.

Of the 137 invalid job and educational placements identified in our audit, 45 were
educational placements. After directly contacting the educational institutions where
ABC reported 45 graduate placements, the colleges and schools confirmed, in 17
cases, that the students had never enrolled. In addition, through interviews with
college and school officials whose signatures were on the verification forms, we were
told that the signatures for 6 out of the 17 claimed placements were apparently forged.

Of the remaining 28 educational placements, 15 were invalid due to noncompliance with
either the PRH requirements of minimum classroom and instructional hours, or with
placement verification requirements. In one case a student was enrolled in a high
school diploma program, but attended class for less than 20 hours a week. For another
claimed placement the date of student enrollment on the school verification form
differed by over 6 weeks from the date claimed by ABC. As part of ARO’s review of the
139 placements, they deemed the remainder of the 13 educational placements to be
invalid for a variety of documentation reasons, such as incorrect dates or wages
reported, or altered signatures. Based on our examination of ARO’s analysis of the
placements, we agree with their conclusions.

Of the 137 invalid placements, 92 were reported as job placements. We examined
each job placement by using the State Unemployment Insurance (UI) Wage system to
verify whether the students had wages in the job and period reported by ABC. There
were 15 instances where a job placement was claimed, but UI wage verification showed
the student had either no reportable wages (13 instances) or inadequate wages (2
instances) for the job in question during the period reported in the placement verification
form.

We determined that 30 of the 92 job placements were invalid because of inadequate
hours worked per week, different jobs claimed, or inadequate employer verification. For
example, a student was initially claimed as working at a restaurant, but his UI wage

US Department of Labor – Office of Inspector General                                      9
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes


record indicated that he made only $54 in one quarter. For other claimed placements,
we found students working at entirely different jobs from the ones claimed. For
instance, a job placement was claimed for a student reported to be working for a drywall
company, but our examination of UI wage records showed that at the time the
placement was claimed for the drywall company, the student was working at a
steakhouse.

Through an analysis of ARO’s work on the other 47 invalid job placements, we found
those placements to be invalid for a variety of documentation reasons, such as incorrect
dates or wages reported, or altered signatures.

ARO reviewed 139 educational and job placements and deemed 137 to be invalid, 1
valid, and 1 not an ABC placement. ARO provided ABC with the opportunity to
resubmit proof of placements within 30 days for the 137 placements deemed invalid.
ABC provided reverifications for 88 placements, but not for the remainder. ARO then
reexamined those 88 placements and concluded that all but 1 were invalid.

We reviewed the work done by the ARO and examined the evidence provided by ABC.
We found the ARO conclusions to be supportable, ranging from different or missing
start dates, to different placements, inadequate wages and incomplete verifications.
Therefore, we concluded that the placements were not valid.

Table 1 summarizes the work conducted by the ARO and the OIG for the 139 PY 2003
placements originally identified as invalid.

                                      Table 1
            OIG Audit and ARO Review of Hotline Identified Placements
                                              Claimed    Claimed
                                              Job        School
                                      TOTAL Placement Placement
              Unsupported by UI
              wages or school        32       15         17
              enrollment - OIG Audit
              Placement/Verification
                                     45       30         15
              Inadequate - OIG Audit
              Did Not Meet Job
              Corps Documentation
                                     60       47         13
              Requirements -
              OIG/ARO
              Valid or not ABC
              Placement- OIG Audit 2          1          1
              and ARO
              Total                  139      93         46



10                                      US Department of Labor – Office of Inspector General
                                                          Report Number: 09-06-004-01-370
                                                          ABC Georgia Overstated Job Corps
                                                                      Placement Outcomes


ABC’s Overall Reported Graduate Placement Outcomes Were Not Reliable

Since the hotline complaint focused primarily on one placement officer’s placements at
two CTS offices, the overall results of that review are not indicative of ABC’s overall
educational and job placements throughout its nine CTS offices in Georgia.
Therefore, we reviewed a statistical sample of 208 placements out of a universe of 947
reported graduate placements from ABC’s 9 CTS offices, and concluded that 42
placements were invalid. Using a statistical projection of the sample results to the
universe of 947 placements initially assigned to ABC in PY 2003 and claimed in PYs
2003 and 2004, we estimate there are 208 (22 percent point estimate of invalid
placements) invalid placements reported by ABC for those program years. (See
Appendix B, Methodology, for an explanation.)

Of the 42 invalid placements identified, 26 were claimed as job placements. We found
that 20 of these placements were not supported by UI wage information. In these
cases, we found that the student’s UI wage records did not reflect any wages earned
during the period in question, although the placement verification forms showed
employment in such fields as a car wash laborer, welder, or residential care provider.
For example, one placement claimed that a student began working in December 2003
in Atlanta as a caregiver at a residential facility. While the employer verification form
appeared valid, the student’s record did not appear at all on UI wage records during that
or any other earnings periods.

Another five reported job placements were considered invalid because the jobs the
students were placed in did not meet the requirements of the PRH. For example, in one
case, a job placement was claimed when the student worked less than 20 hours in a 1
week period, earning less than $90.00.

One reported job placement was considered invalid because the second verification
form (also, in our Hotline Complaint universe) for this student reported a different job
from the job shown on the first verification form.

Also, of the 42 placements found to be invalid, 16 were reported as educational
placements. Of these 16 placements, we found 5 instances where the students were
not enrolled in a college or other training program as claimed. For example, a
placement was claimed for one student at an Augusta technical college starting in
February 2004, for 30 hours a week of preparatory GED courses. However, the
technical college provided documentation to us verifying that the student had not been
enrolled since 1998.

For the other 11 reported educational placements, we concluded the placements were
invalid because the students did not attend classes for the number of hours per week
required (the PRH requires 20 hours per week for technical classes and GED courses
for at least 90 expected calendar days and 9 credit hours for college courses for no less
than 9 credit hours per quarter or semester.) For example, educational placements


US Department of Labor – Office of Inspector General                                       11
Report Number: 09-06-004-01-370
 ABC Georgia Overstated Job Corps
 Placement Outcomes

 were claimed for one career readiness class offered in Atlanta for which only 1 week of
 instruction on job readiness was offered. Table 2 summarizes our sample results:

                                         Table 2
                Analysis of Details for 42 Invalid Graduate Placements


                                                             Placement Valid

                                                             Job not on UI wage
                                                             record
                                                    20       Inadequate
                                                             Wages/Hours
                  165                 42             5
                                                             Re-verification for a
                                                     1       different job

                                                     5       Placement
                                                             unsupported- school
                                                     11      Inadequate school
                                                             hours/credits




 A further analysis of ABC placements showed that invalid graduate placements were
 reported by a majority of ABC offices and were not limited to the CTS specialist
 specified in the hotline complaint. An analysis by placement offices identified 9
 placement specialists who claimed 15 or more graduate placements.

 Table 3 shows our test results for the nine placement specialists and their offices’
 locations. Table 3 shows that the nine placement specialists worked in seven of ABC’s
 nine offices offering placement services.

                                       Table 3
                PY 2003 and PY 2004 Invalid Graduate Placements by
                       Selected Placement Specialist and Office
Placement       Office        Graduate        Sample      Invalid                    Percent
Specialist                    Placements      Size        Placements                 Invalid
1               Augusta       69              17          2                          12%
2               Columbus      31              17          2                          12%
3               Savannah      79              17          3                          18%
4 (Complaint)   Macon,
                Columbus      53              17          3                          18%
5               Marietta      34              17          3                          18%
6               Athens        64              17          4                          24%
7               Augusta       15              15          4                          27%
8               Decatur       55              17          5                          29%
9               Macon         40              17          5                          29%

 12                                        US Department of Labor – Office of Inspector General
                                                             Report Number: 09-06-004-01-370
                                                           ABC Georgia Overstated Job Corps
                                                                       Placement Outcomes



Based on this analysis, we concluded that invalid placements were claimed in a majority
of ABC’s CTS offices.

We found that one of the reasons the significant number of invalid placements occurred
was that the procedures ARO used to monitor ABC placement activities were
ineffective. ARO failed to follow through on identified validation weaknesses.
Specifically, they did not follow the requirements found in 20 CFR 667.505 that require
the following actions:

As a result of an investigation, onsite visit or other monitoring, the Department notifies
the recipient of the findings of the investigation and gives the recipient a period of time
(not more than 60 days) to comment and to take appropriate corrective actions.

The Department reviews the complete file of the investigation or monitoring report and
the recipient's actions under paragraph (a) of this section. The review takes into
account the sanction provisions of WIA sections 184(b).

If the Department agrees with the recipient's handling of the situation, the Department
notifies the recipient. This notification constitutes final agency action.

ARO did not comply with these requirements. ARO first found control weaknesses in
ABC’s placement verification process during routine monitoring in February 2003 but did
not take effective corrective action. Specifically, in the monitoring report on ABC in
February 2003, the ARO monitoring report noted the following:

   Files “indicate students were employed,” but “there were no copies of
   employment verifications.”

   “Instances of folder content and case notes discrepancies, i.e., GED noted
   on 678, however, case notes indicates no GED."

Despite these findings, there was no documentation of ARO action informing ABC of
these findings or initiating any corrective action.

Over 6 months later ARO performed another monitoring review. In the resulting
monitoring report dated September 15, 2003, the project manager raised additional
concerns about “… numerous pen and ink address changes on initial 678.”

Despite the concerns expressed in these two monitoring reports, ARO did not take
formal corrective action or document corrective actions that needed to be taken by ABC.

In early 2004, ARO received an anonymous complaint regarding ABC’s falsification of
placements and performed a review of ABC reported placements in response to that
complaint. ARO confirmed the falsification of placements and in the monitoring report
stated:

US Department of Labor – Office of Inspector General                                          13
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes



"CTS's case files are incomplete"; and

"verification forms are being altered, i.e., date changes, salary changes, job titles
changed, etc."

As a result, in June and July of 2004, the ARO did take steps to improve the validation
process and to validate questionable placements. Job Corps took the following actions:

On June 26, 2004, Job Corps issued Regional Job Corps Instruction No. 04-003
establishing (1) a standard Placement Verification Form that met the requirements of
the PRH and (2) a policy on liquidated damages for invalid placements, in the amount of
$750 per invalid placement.

In July, 2004, an ARO internal email was sent to project managers to "validate
questionable placements."

Almost 18 months elapsed between the initial monitoring review in February 2003 and
corrective action in June 2004.

Another potential reason the condition found at ABC was not found earlier is the fact
ARO did not follow the 20 CFR 667.630 requirement to report potential fraud, waste, or
abuse to the OIG through the Department of Labor’s Incident Reporting System. The
CFR states:

Information and complaints involving criminal fraud, waste, abuse or other criminal
activity must be reported immediately through the Department's Incident Reporting
System to the DOL Office of Inspector General, Office of Investigations . . . or to the
corresponding Regional Inspector General for Investigations, with a copy
simultaneously provided to the Employment and Training Administration.

ARO management did not report to the OIG potential fraud, waste, and abuse in
reported Job Corps graduate placements found in their monitoring visits as early as
February 2003. The OIG was first alerted of the potential falsification of placements
through an anonymous hotline complaint.

ARO management could not provide an explanation for not following up on monitoring
report findings. They stated that they were not aware of the requirement to provide
information to the OIG on the information found in the monitoring visits. In addition, they
noted that the PRH did not provide guidance on how this process was to be applied.

Conclusion

Our audit of ABC placements revealed many instances of inadequate documentation,
alleged signature forgeries, and unsupported job placements. We found that a
significant number of invalid placements were claimed both in the hotline-identified

14                                        US Department of Labor – Office of Inspector General
                                                            Report Number: 09-06-004-01-370
                                                          ABC Georgia Overstated Job Corps
                                                                      Placement Outcomes


placements and in our statistical sample. Of hotline complaint-identified placements, we
found 137 of 139 graduates and enrollees were not placed in jobs or educational
positions which met the verification and/or documentation requirements of the PRH, as
claimed by ABC. We concluded the hotline complaint was substantiated.

Further, 42 out of a statistical sample of 208 placements were invalid. Statistically
projected to the universe of 947 graduate placements initially assigned to ABC in PY
2003 and placed in PY 2003 and PY 2004 by using a point estimate of 22 percent (see
Appendix B, Methodology, for explanation), we estimate there were 208 invalid
placements reported. We concluded that ABC had significantly misstated the
placements and that the placement outcomes reported were unreliable.

ARO’s failure to ensure effective use of its monitoring control contributed to the
continued instances of invalid placements after they first became aware of the condition.

Nationwide Action by Job Corps

Job Corps has already begun taking action to ensure performance data reliability at all
centers. To improve system-wide data validation, Job Corps has convened a national
performance data reliability workgroup to make recommendations for processes to
ensure system-wide integrity of performance data.

Auditee Response

We obtained comments from ABC and ARO.

ABC Response: ABC disagreed with the report’s statements regarding the number of
invalid placements and the determination that many their placements are invalid. In
addition, they stated the report was unclear as to how the OIG used UI wage records in
evaluating the validity of placements. ABC did agree that one CTS (placement
specialist) reported some invalid placements, but strongly disagreed that invalid
placements were claimed throughout ABC offices. ABC management stated that
because of a lack of access to data and the compressed time they were given to
research the reported invalid placements, their ability to refute the findings was severely
impeded. They claimed that they had already obtained new documentation that verifies
the validity of a number of the alleged invalid placements.

ARO Response: ARO concurred with the findings. The Regional Director stated ARO
has implemented procedures that address recommendations 1-4. They also stated Job
Corps will research the feasibility of making the assessment of incentives and bonuses
as recommended.

OIG Conclusion

ABC’s response was based to a large degree on a preliminary statement of facts issued
during the audit and includes discussions on placements not used in our final audit

US Department of Labor – Office of Inspector General                                     15
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes

conclusions. ABC also stated our sample included students who they had not claimed
as placed and some who were not placed by ABC. We had discussed these individual
students with ABC during our audit and had removed them from our final sample
results. The response does not address audit documentation other then UI wage data
used to support our conclusions. ABC did not provide additional information that
changes the report’s conclusions.

ABC’s detailed response, including specific disagreements on individual placements,
can be found in Appendix D.

Although ARO stated they have implemented procedures that would answer the
recommendations, the findings and conclusion remain unchanged until the National
Director provides detailed information that addresses the recommendations.

Recommendations

We recommend the National Director, Office of Job Corps, direct the Regional Director
of the Atlanta Job Corps Office to:

      1. Implement recommendations of the national workgroup relative to the monitoring
         and follow-up of CTS providers’ placement activities in order to correct
         weaknesses and breakdowns in the region’s application of its monitoring policies
         and procedures.

      2. Prepare a corrective action plan for all future program monitoring reports.

      3. Ensure training of all ARO personnel responsible for monitoring operators and
         service providers activities in their responsibility for reporting of potential fraud
         incidents to the OIG through the Department’s Incident Reporting System, as
         required by 20 CFR 667.505


Objective 2: Did ARO use effective policies and procedures to ensure appropriate
liquidated damages were recovered from ABC in cases of identified invalid placements?
The ARO’s actions to recover liquidated damages were delayed due to the lack of management controls


Our audit included an assessment of the allegation that the ARO Director did not act to
recover liquidated damages from ABC based on invalid placements identified by the
ARO. We found the allegation to be unsubstantiated. However, we did find that the
ARO’s actions to recover liquidated damages were delayed due to the lack of
management controls surrounding the recovery of liquidated damages.

ABC Contract Lacked Liquidated Damages Amount

ARO did not take all required actions under the terms of its contract with ABC. The
ABC and Job Corps contract dated January 1, 2001, states: “the price for an invalid
placement will be negotiated and agreed prior to contractor award.”

16                                                                     US Department of Labor – Office of Inspector General
                                                                                         Report Number: 09-06-004-01-370
                                                        ABC Georgia Overstated Job Corps
                                                                    Placement Outcomes



However, the ARO Director failed to specify an amount for liquidated damages prior to
the contract award, as required. According to the ARO Director he inadvertently failed
to negotiate and agree on an amount prior to the contract award and also did not realize
the oversight during the course of the contract for the initial year and 2 option years
from 2002 - 2004.

The ARO Director stated that he eventually realized the oversight in 2004 and
attempted to clarify and establish a regional policy on the recovery of liquidated
damages for invalid placements. On June 28, 2004, the ARO issued Instruction No. 04-
003 with the purpose of establishing a policy on the amount to be paid by contractors as
liquidated damages for invalid placements. The amount established was $750 per
invalid placement.

The ARO reminded ABC of the clarified policy on liquidated damages in a letter dated
January 20, 2005, and stated in writing that a bilateral contract modification was being
initiated to reflect the $750 liquidated damage amount per invalid placement. Further,
ARO computed partial liquidated damages based on their reviews and drafted letters to
ABC to actually assess the liquidated damages. According to ARO, these letters were
not issued due to the OIG involvement in the ABC issues.

We were also told that the Job Corps National Office was developing and will issue a
new policy in 2006 that would require CTS contracts to include the following clause:

       G.7 Liquidated Damages for Placements Found to be Invalid

       The contractor shall be held financially responsible for the costs
       associated with placements found to be invalid, and shall be required to
       reimburse the government in the amount of $750 per invalid placement.

We found one of the reasons ARO did not include an amount for liquidated damages in
the contract with ABC was a lack of formal policies and procedures by the National
Office and ARO. According to the Job Corps National Office, prior to developing the
new policy to be issued in 2006, there was no set criteria required for Job Corps
contracts to specify the amount of or recovery for liquidated damages. The actual
amount of damages varied from $450 to $950, depending on the region.

The effects of ARO not reporting invalid placements by ABC are as follows:

Reports to the Secretary of Labor and to Congress for PYs 2003 and 2004 did not
provide reliable information that could be used to properly assess placement
performance of the Job Corps program.

The amount of performance bonuses paid to centers based on the invalid placements
could have resulted in an overpayment to those centers.


US Department of Labor – Office of Inspector General                                   17
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes

Using $750 per placement for the 137 invalid placements in the hotline complaint, and a
lower limit estimate of 16 percent (153 out of 947) of projected invalid placements for
the statistical sample, we developed a statistical estimate of $214,992 in liquidated
damages that should be assessed to ABC. (See Appendix B, Methodology, for
explanation.)

ARO did not timely report identified invalid placements and has not assessed an
estimated $214,992 in liquidated damages. Additionally, placement performance
results used by center operators could have lead to overpayment of performance
bonuses to center operators.

ARO concurred with our findings and stated:

     Procedures have been put into place to address these issues. Revisions to both the
     Policy & Requirements Handbook and the model Request for Proposal (RFP)
     document now specify a specific amount for liquidated damages for placements
     found to be invalid, and the procedures to be followed for recouping these liquidated
     damages.

Although ARO stated they have implemented procedures that would answer certain
recommendations, the findings and conclusion remain unchanged until the National
Director provides detailed information that addresses the recommendations.

Recommendations

We recommend the National Director, Office of Job Corps, direct the ARO Director to:

     4. Develop additional procedures for contract officers to follow in preparing
        performance based contracts that will ensure required contractor penalty
        provisions are included in all contracts.

     5. Immediately assess $214,992 in liquidated damages resulting from invalid
        placements in PYs 2003 and 2004 identified in this audit report.

We recommend the National Director, Office of Job Corps:

     6. Direct all Job Corps regional offices with ABC CTS contracts to review reported
        placements by ABC for potentially invalid placements.


Objective 3: Did the ARO Director fail to revise ABC and the ARO’s performance data
to reflect invalid placements because of concern about the impact on the ARO’s
national performance rating?
ARO did take action and worked with the National Office and ABC to validate placements, although Job Corps actions could have been timelier


As part of our audit, we assessed the allegation that the ARO Director failed to revise
ABC and the region’s performance data to reflect invalid placements because he was

18                                                                      US Department of Labor – Office of Inspector General
                                                                                          Report Number: 09-06-004-01-370
                                                        ABC Georgia Overstated Job Corps
                                                                    Placement Outcomes




concerned about the impact on the region’s national performance rating. We concluded
the allegation was not substantiated, although Job Corps actions could have been
timelier. The ARO did take action and worked with the National Office and ABC to
validate placements. However, while the ARO Director was first aware of a problem
with invalid placements in February 2003, he did not take corrective action until June
2004.

The ARO Director told us that he did not initiate immediate action to revise performance
numbers because revising ABC’s performance outcomes could have undesirable
results for the Job Corps centers being supplied by ABC. Specifically, Job Corps center
outcomes could be impacted because ABC’s placements were factored into the centers’
performance ratings. These ratings have a financial affect on centers seeking new
contracts or option years; and/or receiving performance incentives and bonuses. Thus,
he concluded that centers would be adversely impacted through no fault of their own.

The effect of the Director’s actions might have been overpayments to operators of
centers that benefited from the invalid placements.

The ARO concurred with our finding and stated that Job Corps will research the
feasibility of making the assessment of incentives and bonuses per the
recommendation. Although the ARO stated they will research the feasibility of
assessment of incentives and bonuses, the finding and conclusion remain unchanged
until the National Director provides detailed information that addresses the
recommendations.

Recommendation

We recommend the National Director, Office of Job Corps:

7. Assess the likelihood center operators received overpayments of performance
   incentives and bonuses based on the invalid placements identified in this report and,
   based on that assessment, determine the amount of overpayments and work with
   the Office of the Solicitor to determine and seek recovery from those liable for
   repayment, including ABC and/or center operators.




Elliot P. Lewis
April 25, 2006




US Department of Labor – Office of Inspector General                                  19
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                 US Department of Labor – Office of Inspector General
                                                     Report Number: 09-06-004-01-370
                                                       ABC Georgia Overstated Job Corps
                                                                   Placement Outcomes




Appendices




US Department of Labor – Office of Inspector General                                21
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                 US Department of Labor – Office of Inspector General
                                                     Report Number: 09-06-004-01-370
                                                         ABC Georgia Overstated Job Corps
                                                                     Placement Outcomes

                                                                           APPENDIX A
Background

As a national, primarily residential training program, Job Corps' mission is to attract
eligible young adults, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education. Job Corps reports
its yearly placement accomplishments to Congress and the Secretary of Labor.

As part of its mission to educate, train, and place students in meaningful jobs, Job
Corps employs the use of career transition service contractors and related career
transition services. ABC is one of 41 Job Corps CTS and Outreach and Admissions
placement contractors throughout the country. ABC is headquartered in Atlanta, with
offices throughout Georgia and three other states. ABC has offices in nine sites
throughout the State of Georgia.

Beginning on January 2001, ABC was awarded a placement contract by the ARO for a
range of career transition services, serving approximately 1,600 youth per year in the
State of Georgia for a base year and four option years. This included the responsibility
of identifying and matching graduates and enrollees with placement opportunities in
jobs, the military, or further education and training. In addition to career placement
services, the ABC contract also included outreach and admissions service to locate,
screen, and place applicants with Job Corps centers.

ARO received informal information in early 2004 which questioned the validity of
placements submitted by ABC placement specialists. Following this, ARO conducted a
review of ABC reported placements and identified 139 potentially invalid placements in
PY 2003 including many instances of forged signatures and altered information. The
majority (74 percent) of these placements referred to in an anonymous hotline complaint
filed with the OIG in 2004 were submitted by one ABC placement specialist.

ARO provided ABC with an opportunity to resubmit verifications for the 139 potentially
invalid placements. ABC submitted additional placement information to the ARO in
October 2004. After reviewing the additional information, ARO concluded only 1 of the
139 placements originally questioned was a valid placement. They determined that 1
other placement was placed by a different contractor and the remaining 137 placements
were invalid for reasons ranging from different or missing start dates, to different
placements, wages and incomplete verifications. In our later review, the OIG found no
documentation that ARO actually stipulated to ABC that the job had to be the same job;
ARO later clarified that only documentation that supported the original placement was
acceptable.

In October 2004, the OIG received the hotline complaint alleging that 1) placements
were falsified in one CTS placement office and invalid placements were claimed
throughout ABC’s CTS offices, (2) the Atlanta Regional Office of Job Corps did not act
to recover liquidated damages from ABC, and (3) the ARO Director failed to revise ABC
and the ARO’s performance data to reflect invalid placements because of concern

US Department of Labor – Office of Inspector General                                   23
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes

about the impact on the ARO’s national performance rating. Our audit was conducted
because of allegations of fraud and/or abuse by employees of a Job Corps service
provider and Federal personnel charged with oversight of a program whose mission
includes serving eligible young people by providing meaningful jobs or further
educational opportunities

ABC’s contract with Job Corps ended May 31, 2005. The subsequent CTS contractor
reviewed placements in all active files from ABC (except for 39 of those files which were
missing, and 296 files which were received but then returned because they were in fact
expired). They concluded that 484 of 1,044 reviewed files (46 percent) were either
questionable or could not be verified, due to lack of documentation, inappropriate
documentation or noncompliance with the PRH. The ARO has reviewed and concurred
with these results. ABC, however, disputes these conclusions.




24                                      US Department of Labor – Office of Inspector General
                                                          Report Number: 09-06-004-01-370
                                                        ABC Georgia Overstated Job Corps
                                                                    Placement Outcomes

                                                                          APPENDIX B
Objectives, Scope, Methodology, and Criteria

Objectives

We reviewed the allegation that falsified placements were reported in one of ABC’s CTS
office, and that invalid placements were claimed throughout ABC’s CTS offices. We
developed the following objectives to determine whether the allegations of fraud, waste,
and abuse noted in a hotline complaint were correct:

Were placement outcomes reported by ABC in Program Years (PYs) 2003 and 2004
reliable and did ARO use effective policies and procedures to ensure placement
validity?

Did ARO use effective policies and procedures to ensure appropriate liquidated
damages were recovered from ABC in cases of identified invalid placements?

Did the ARO Director fail to revise ABC and the ARO’s performance data to reflect
invalid placements because of concern about the impact on the ARO’s national
performance rating?

Scope and Methodology

Our audit scope included the following placement data, and encompassed the period
spanning PY 2003 through PY 2004:

Placements identified through the hotline complaint, encompassing graduate and
enrollee placements claimed.

Graduate placements initially assigned to ABC in 2003 which were reported as placed
by ABC for PYs 2003 and 2004.

Due to the bias in emphasis on one placement officer in the placements provided by the
hotline complaint, we expanded our scope and took a statistical sample of graduate
placements of all placement officers throughout ABC’s nine CTS offices in Georgia. We
identified as our universe those graduates initially assigned to ABC in PY 2003 which
were reported as placed by ABC for PYs 2003 and 2004. We then reviewed a
statistical sample of 208 of these placements and projected the error in the sample to
the universe of 947 graduate placements. We can say at a 95 percent confidence level
that there was a weighted sample percent, or point estimate (22 percent, or 208 out of
947) of invalid placements. In order to determine liquidating damages, we used a
conservative approach and applied the lower estimated error rate of 16 percent.

The statistical sample was stratified by high, medium, and low-risk placements
according to CTS placement site (based upon information provided by OIG’s Office of
Labor Racketeering and Fraud Investigation and the ARO). Sampling errors were

US Department of Labor – Office of Inspector General                                  25
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes

calculated using Taylor Linearization methodology. The Survey Data Analysis
(SUDDAN) software was used for this purpose, using stratified cluster 2-stage without
replacement design. Our testing of internal controls pertaining to the placement
verification and reporting process focused only on those controls at ARO related to our
audit objectives of determining whether the allegations could be substantiated and
whether performance data reported in PYs 2003 and 2004 were reliable. Because the
contract with ABC had already ended, our audit work did not include identifying and
testing the design or effectiveness of controls used by ABC. Our review of internal
controls was not intended to form an opinion on the adequacy of management controls
overall, and we do not render such an opinion.

Our methodology encompassed the following evidence gathering and analysis
techniques and assumptions:

We conducted a series of interviews with ARO and HQ management regarding internal
controls pertaining to placement validation and reporting, and reviewed memoranda,
email, directives, and other documentation issued by ARO, the National Office, and
ABC.

We then conducted a reliability assessment of the data provided to us from Job Corps’
computer-based systems. We tested the validity and reliability of the electronic
database of 947 graduate placements provided to us, by verifying the Job Corps Data
Center data elements (student name, social security number, placement information)
against the archival data of placement files supplied to us by ABC, ARO, and the
subsequent CTS contractor.

We reviewed individual placement files (both original and copies) received from ABC,
ARO, and the subsequent placement contractor. We evaluated individual placements
reported in PYs 2003 and 2004 using the criteria shown below, and established the
following specific reverification techniques:

A. Valid: Placement Records Conform with Job Corps Placement Criteria

Determine placement validity based on comparing placement information from review of
Job Corps Placement Form (678) with accompanying verification form and State wage
records.

ABC Georgia verification form is acceptable/unacceptable.

School verification documents show student enrolled.

B. Invalid: Placement Records Do Not Conform to Job Corps Placement Criteria

Determine placement validity based on comparing placement information from review of
Job Corps Placement Form (678) with accompanying verification form and State wage
records.


26                                      US Department of Labor – Office of Inspector General
                                                          Report Number: 09-06-004-01-370
                                                        ABC Georgia Overstated Job Corps
                                                                    Placement Outcomes



Determine if records are missing or do not agree.

Wages do not appear in UI record.

Hours are inadequate for the required week of work.

We performed audit fieldwork between June 2005 and April 2006, at the ABC and Job
Corps offices in Atlanta, Georgia. We conducted exit conferences with ABC on
September 7, 2006, and with and the Job Corps Atlanta Regional Office on
September 8, 2006.

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards issued by the Comptroller General of the United States.

Criteria

In addressing the audit objectives, we reviewed relevant Federal laws, regulations, and
guidance. These included the following:

Policy and Requirements Handbook (PRH), July 1, 2001. Chapter 4.5, Documentation,
Reporting and Verification.

Standards for Internal Control in the Federal Government. November 1999,
Government Accountability Office /AIMD-00-21.3.1 (Green Book);

Office of Management and Budget Circular No. A-123, Revised June 21, 1995

20 CFR 667.630, the Department of Labor’s Incident Reporting System.




US Department of Labor – Office of Inspector General                                  27
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                 US Department of Labor – Office of Inspector General
                                                     Report Number: 09-06-004-01-370
                                                       ABC Georgia Overstated Job Corps
                                                                   Placement Outcomes

                                                                         APPENDIX C
Acronyms and Abbreviations

ABC        American Business Corporation Georgia

ARO        Atlanta Regional Office of Job Corps

CFR        Code of Federal Regulations

CTS        Career Transition Service

DOL        Department of Labor

GAGAS Generally Accepted Government Auditing Standards

GED        General Educational Development Test

NO         Job Corps National Office Headquarters

PRH        Policy and Requirements Handbook

UI         Unemployment Insurance




US Department of Labor – Office of Inspector General                                29
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                 US Department of Labor – Office of Inspector General
                                                     Report Number: 09-06-004-01-370
                                                       ABC Georgia Overstated Job Corps
                                                                   Placement Outcomes

                                                                       APPENDIX D.1
Auditee (ABC) Response to Draft Report




US Department of Labor – Office of Inspector General                                31
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes




32                                 US Department of Labor – Office of Inspector General
                                                     Report Number: 09-06-004-01-370
                                                       ABC Georgia Overstated Job Corps
                                                                   Placement Outcomes




US Department of Labor – Office of Inspector General                                33
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes




34                                 US Department of Labor – Office of Inspector General
                                                     Report Number: 09-06-004-01-370
                                                       ABC Georgia Overstated Job Corps
                                                                   Placement Outcomes




US Department of Labor – Office of Inspector General                                35
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes




36                                 US Department of Labor – Office of Inspector General
                                                     Report Number: 09-06-004-01-370
                                                       ABC Georgia Overstated Job Corps
                                                                   Placement Outcomes




US Department of Labor – Office of Inspector General                                37
Report Number: 09-06-004-01-370
ABC Georgia Overstated Job Corps
Placement Outcomes




38                                 US Department of Labor – Office of Inspector General
                                                     Report Number: 09-06-004-01-370
                                                       ABC Georgia Overstated Job Corps
                                                                   Placement Outcomes

                                                                       APPENDIX D.2
Auditee (ARO) Response to Draft Report




US Department of Labor – Office of Inspector General                                39
Report Number: 09-06-004-01-370
